       Department of Health and Human Servces

                        OFFICE OF

                   INSPECTOR GENERAL





MEDICARE BENEFICIARIES'
                                   FOR                    PLANS



         FINANCING NURSING HOME CARE




                                :v.
                                      Richard P. Kusserow
                                      INSPECfOR GENERA
                          "0



                               cIa        OEI-090-89031
PUROSE
This report presents Medicare beneficiaries ' assessments of their     abilty to pay for
nursing home care.

BACKGROUN
In 1989,   the Offce of Inspector General (OIG) for the Department of Health and
Human Servces conducted a national survey to assess Medicare beneficiaries
experience and satisfaction with various aspects of the Medicare program. The results
are in the report "A Survey of Medicare Beneficiary Satisfaction: 1989" (OAI- 04- 89­
89040). In one segment of the survey, we ascertained beneficiaries ' knowledge of
nursing home careprovisions-- and.thei p()tentia1-abilty.to- pay for such servces.

In 1991 , the OIG conducted another satisfaction survey, the findings of which are
presented in the report " Medicare Beneficiary Satisfaction: 1991" (OEI- 04- 90- 89030).
The Office of Management and Budget (OMB) reviewed the questionnaires for both
surveys. During the clearance process for the 1991 survey, the OMB asked the OIG
to again evaluate the abilty of beneficiaries to pay for nursing home care.

MEllODS
In December 1990 we mailed a survey instrument to 637 randomly selected
beneficiaries for whom Medicare Part B claims had been fied in Calendar Year 1989.
Their participation in the survey   was voluntary.

A total of 519 beneficiaries returned completed questionnaires, for a response rate of
83 percent.

FIINGS
In the 1991 survey    we found that:

      Most    benri cannt pay for nug home care.
Of the 519 respondents ,
                       445 answered questions on their abilty to pay for nursing
home care. Seventy- two percent said they cannot pay for nursing home care , should
they ever need it.

Of those who said they have a way to pay for nursing home care:

       Fort-seven percent said they would rely on personal assets such as savings.
       One- third    (33 percent) said they   would rely on private insurance.
       Twenty percent said they would rely on Medicaid , although only half of that
       group said they are currently covered by Medicaid.

       Some   benciri said the thought tht Medicare pays for nug home care.
Twenty-five percent of beneficiaries said they thought that Medicare pays for nursing
home custodial care , although it does not. Medicare only pays for skilled nursing care
and then for just a limited period of time and under specific circumstances.

CONCLUSION

Most beneficiaries (72 percent) indicate they have not made adequate plans should
they need nursing home- care;.-This-- finding.. is identical to. the-results obtained from the
1989 survey.
